                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM




Our office received an allegation that the subject' submitted duplicate proposals for fimding through
the Small Business Innovative Research program to two federal agencies. Both agencies fbnded
subject's proposal.

This case was reviewed and no finding of wrongdoing on subject's behalf.

Accordingly, this case is closed.




' Footnote redacted

                                                                                    SF OIG Form 2 (1 1/02)
